      Department of Homeland Security




      The Commonwealth of Virginia’s Management of
     State Homeland Security Program and Urban Areas
   Security Initiative Grants Awarded During Fiscal Years
                        2008 Through 2010




OIG-13-10                                     November 2012

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Securi ty
                                Washington, DC 20528 1 www.oig.d hs.gov

                                           NOV 14 2012
MEMORANDUM FOR:                 Elizabeth M. Harman
                                Assistant Administrator
                                Grant Programs Directorate
                                Federal Emergency Management Agency

FROM:                           Anne L. Richards ~ i~
                                Assistant Inspector General for Audits

SUBJECT:                        The Commonwealth of Virginia's Management of State
                                Homeland Security Program and Urban Areas Security
                                Initiative Grants Awarded During Fiscal Years 2008 Through
                                2010

Attached for your action is our final report, The Commonwealth of Virginia's Management
of State Homeland Security Program and Urban Areas Security Initiative Grants Awarded
During Fiscal Years 2008 Through 2010. We incorporated the formal comments from the
Federal Emergency Management Agency (FEMA) in the final report.

The report contains seven recommendations aimed at improving the overall management,
performance, and oversight of FEMA's Homeland Security Grant Program. Your office
concurred with all seven recommendations. Based on information provided in your
response to the draft report, we consider the recommendations resolved. Once your office
has fully implemented the recommendations, please submit a formal closeout letter to us
within 30 days so that we may close the recommendations. The memorandum should be
accompanied by evidence of completion of agreed -upon corrective actions and of the
disposition of any monetary amounts.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1 


   Background ........................................................................................................................ 2 


   Results of Audit ................................................................................................................... 3 

   

          Commonwealth Could Not Quantify Improved Preparedness............................... 3 

          Recommendation ................................................................................................... 4 

          Management Comments and OIG Analysis ........................................................... 4 

           

          Grant Management Oversight Needs Improvement.............................................. 5 

          Recommendations .................................................................................................. 7 

          Management Comments and OIG Analysis ............................................................ 8 

           

          Untimely Award of Grant Funds ............................................................................. 9 

          Recommendation.................................................................................................. 10 

          Management Comments and OIG Analysis .......................................................... 11 

           

          Untimely Expenditure of Grant Funds .................................................................. 11 

          Recommendation.................................................................................................. 12 

          Management Comments and OIG Analysis .......................................................... 12 

           

   Appendixes
    

              Appendix A:           Objectives, Scope, and Methodology ........................................... 14 

              Appendix B:           FEMA Management Comments to the Draft Report .................... 17 

              Appendix C:           VDEM Management Comments to the Draft Report ................... 20 

              Appendix D:           Homeland Security Grant Program ............................................... 23 

              Appendix E:           Commonwealth of Virginia Homeland Security Governance ....... 24 

              Appendix F:           Commonwealth of Virginia Procurement and Financial 

                                    Management Compliance Issues and Schedule of 

                                    Questioned Costs .......................................................................... 26 

              Appendix G:           Major Contributors to This Report ............................................... 28 

              Appendix H:           Report Distribution ....................................................................... 29 





www.oig.dhs.gov                                                                                                                 OIG-13-10
                      OFFICE OF INSPECTOR GENERAL
                         Department of Homeland Security


   Abbreviations
           CFR     Code of Federal Regulations
           DHS     Department of Homeland Security
           FEMA    Federal Emergency Management Agency
           FY      fiscal year
           HSGP    Homeland Security Grant Program
           OIG     Office of Inspector General
           SHSP    State Homeland Security Program
           UASI    Urban Areas Security Initiative
           VDEM    Virginia Department of Emergency Management




www.oig.dhs.gov                                                  OIG-13-10
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires the Department of Homeland Security (DHS), Office of Inspector General
   (OIG), to audit individual States’ management of State Homeland Security Program and
   Urban Areas Security Initiative grants. This report responds to the reporting
   requirement for the Commonwealth of Virginia.

   The objectives of the audit were to determine whether the Commonwealth of Virginia
   distributed and spent State Homeland Security Program and Urban Areas Security
   Initiative grant funds (1) effectively and efficiently and (2) in compliance with applicable
   Federal laws and regulations. We also addressed the extent to which grant funds
   enhanced the Commonwealth’s ability to prevent, prepare for, protect against, and
   respond to natural disasters, acts of terrorism, and other manmade disasters. The audit
   included a review of $90 million in State Homeland Security Program and Urban Areas
   Security Initiative grants awarded to the Commonwealth during fiscal years 2008
   through 2010.

   In most instances, the Commonwealth of Virginia distributed and spent State Homeland
   Security Program and Urban Areas Security Initiative grant funds in compliance with
   applicable Federal laws and regulations. Additionally, the Commonwealth developed
   Homeland Security Strategies that included goals and objectives that were consistent
   with Federal requirements. However, the Commonwealth needs to (1) develop a
   comprehensive performance measurement system, (2) strengthen grant management
   oversight, and (3) award and expend grant funds in a timely manner.

   We made seven recommendations to the Federal Emergency Management Agency,
   which, if implemented, should strengthen program management, performance, and
   oversight. The Federal Emergency Management Agency concurred with our
   recommendations and is taking or planning to take steps for corrective actions.




www.oig.dhs.gov                                 1                                        OIG-13-10
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   DHS, through the Homeland Security Grant Program (HSGP), provides Federal funding to
   help State and local agencies enhance their capabilities to prevent, deter, respond to,
   and recover from terrorist attacks, major disasters, and other emergencies. Within DHS,
   the Federal Emergency Management Agency (FEMA) administers the HSGP. Appendix C
   contains a description of the interrelated grant programs that compose the HSGP.

   The HSGP is one tool in a comprehensive set of measures that Congress authorized and
   the administration implemented to help strengthen the Nation against risks associated
   with potential terrorist attacks. The program is an important part of the administration’s
   larger, coordinated effort to strengthen homeland security preparedness. The HSGP
   implements measures to fulfill the objectives of post-9/11 laws, strategy documents,
   plans, and Homeland Security Presidential Directives.

   HSGP guidance requires the Governor of each State and Territory to designate a State
   Administrative Agency to apply for and administer grant funding awarded under the
   HSGP. The Commonwealth of Virginia has designated the Virginia Department of
   Emergency Management (VDEM) as the State Administrative Agency that applies for
   grant funds and provides administrative oversight of the HSGP. VDEM administers the
   Commonwealth’s emergency services and disaster preparedness programs and
   distributes aid among its subdivisions. Appendix D contains details on the entities in the
   Commonwealth involved in HSGP coordination.

   HSGP guidance also requires the development of a State Homeland Security Strategy for
   State Homeland Security Programs (SHSPs) and an Urban Areas Security Initiative (UASI)
   Homeland Security Strategy for UASI. The State and UASI strategies must include goals
   and objectives that address the four mission areas: Prevent, Protect, Respond, and
   Recover, as well as align with national priorities. In addition, the UASI strategy must be
   consistent with the State strategy. The Commonwealth of Virginia had a State Homeland
   Security Strategy, as well as UASI Homeland Security Strategies for Richmond and
   Norfolk, for fiscal years (FYs) 2008 through 2010.

   From FY 2008 through FY 2010, the Commonwealth of Virginia received $96.8 million in
   HSGP funds. This HSGP funding included $90 million in SHSP and UASI grants.

   Appendix A contains details on the objectives, scope, and methodology of this OIG audit.




www.oig.dhs.gov                                2                                        OIG-13-10
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Results of Audit
   In most instances, the Commonwealth of Virginia distributed and spent grant funds in
   compliance with applicable Federal laws and regulations. Additionally, the
   Commonwealth developed Homeland Security Strategies that included goals and
   objectives consistent with Federal requirements. To improve its grants management
   practices, the Commonwealth should develop a comprehensive performance
   measurement system, strengthen grant management oversight, and award and expend
   grant funds in a timely manner.

           Commonwealth Could Not Quantify Improved Preparedness

           The Commonwealth of Virginia made efforts to measure improved preparedness
           by using preparedness and capability reports and other assessments. However,
           it could not demonstrate quantifiable preparedness improvements and
           accomplishments because it did not set measurable target performance levels
           that could be compared with actual achievement. Without goals and objectives
           against which it can measure progress, the Commonwealth cannot evaluate the
           effect of grant expenditures on its preparedness and response capabilities.

           Code of Federal Regulations (CFR) 44 CFR 13.40, MonitoringfandfReportingf
           ProgramfPerformance,f(a)fMonitoringfbyfgrantees, requires grantees to monitor
           grant- and subgrant-supported activities to ensure that performance goals are
           being achieved. According to DepartmentfoffHomelandfSecurityfStatefandfUrbanf
           AreafHomelandfSecurityfStrategyfGuidancefonfAligningfStrategiesfwithfthef
           NationalfPreparednessfGoal, dated July 22, 2005, an objective sets a tangible and
           measurable target level of performance over time against which actual
           achievement can be compared, including a goal expressed as a quantitative
           standard, value, or rate. Therefore, an objective should be—

           •	 Specific, detailed, particular, and focused—help to identify what is to be
              achieved and accomplished;
           •	 Measurable—quantifiable, provide a standard for comparison, and identify a
              specific achievable result;
           •	 Achievable—not beyond a State, region, jurisdiction, or locality’s ability;
           •	 Results-oriented—identify a specific outcome; and
           •	 Time-limited—have a target date for achieving the objective.

           Although the goals and objectives in the Commonwealth’s State and UASI
           strategies aligned with national priorities and met most Federal guidance
           requirements, they did not include measurable target levels of performance to

www.oig.dhs.gov                                3                                 	    OIG-13-10
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           compare with actual achievement. Furthermore, objectives did not always have
           target dates for completion. For example, the Commonwealth’s objective to
           implement the Ready Virginia Communications Plan was not measurable or
           time-limited. Without measurable target performance levels for goals and
           objectives, the Commonwealth could not evaluate the effect of grant
           expenditures on its preparedness and emergency response capabilities.

           Recommendation

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate, assist VDEM to:

           Recommendation #1:

           Develop a comprehensive performance measurement system for its Homeland
           Security Strategies’ goals and objectives that includes target levels of performance
           and the means to measure progress toward enhancing preparedness.

           Management Comments and OIG Analysis

           FEMA’s Response to Recommendation #1: FEMA concurred with
           recommendation 1. According to FEMA, the FY 2012 HSGP, Funding Opportunity
           Announcement, provided instruction to States on updating their homeland
           security strategies so that their goals and objectives align with Presidential Policy
           Directive 8 and the Whole Community approach.

           The National Preparedness Directorate in FEMA is developing processes to
           measure core capabilities in accordance with the National Preparedness Goal
           pursuant to Presidential Policy Directive 8, which will be completed and
           submitted to FEMA leadership by December 2012. Upon official release of the
           guidance on performance measures, the Grant Programs Directorate will require
           VDEM to update its strategy and fully comply with the additional guidance.

           VDEM’s Response to Recommendation #1: VDEM agreed with recommendation 1.
           VDEM indicated that its Homeland Security Working Group has been working on
           the recent Threat and Hazard Identification and Risk Assessment and State
           Preparedness Report requirement due to FEMA by December 31, 2012. Once
           FEMA approves these reports, the Commonwealth will be able to update the
           Homeland Security Strategy to include the OIG recommendations.

           OIG Analysis: The actions proposed by FEMA and VDEM meet the intent of
           recommendation 1. When implemented, the actions identified in the responses

www.oig.dhs.gov                                  4                                        OIG-13-10
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           should address the conditions identified during the audit. This recommendation
           will remain resolved and open until we have reviewed the updated Homeland
           Security Strategies.

           Grant Management Oversight Needs Improvement

           VDEM needs to improve its policies and procedures so that it can better monitor
           subgrantees throughout the grant performance period. Federal regulation
           44 CFR 13.40, MonitoringfandfReportingfProgramfPerformance, requires
           grantees to oversee subgrantee activities to ensure that they comply with
           applicable Federal requirements. VDEM’s policies and procedures did not exist
           or were insufficient to provide the required oversight. For example, the high-
           level guidance in VDEM grants management monitoring procedures did not
           include detailed steps for reviewing files when conducting oversight or a
           methodology for selecting subgrantees for onsite monitoring.

           According to Office of Management and Budget Circular A-133, Compliancef
           Supplementf2011,fPartf3-CompliancefRequirements,fM-SubrecipientfMonitoring,
           grantees are responsible for monitoring subgrantees’ use of Federal awards
           through reporting, site visits, regular contact, or other means. VDEM Grants
           Management Office administrators conducted three onsite monitoring visits
           during FYs 2008 through 2010.

           The VDEM internal auditors did not have policies or procedures for selecting
           grant programs to audit and limited their reviews to closed FY 2005 through
           FY 2007 SHSP projects. By limiting reviews to closed projects, VDEM lost the
           opportunity to identify and correct grant compliance issues before funds were
           expended and grants were closed.

           Compliance Issues

           In our review of 16 SHSP- and UASI-funded grant projects totaling $12.7 million
           awarded from FY 2008 through FY 2010, we identified instances in which
           subgrantees’ procurement procedures, as well as their financial and property
           management, did not comply with Federal, State, or local requirements.
           Additionally, in one instance VDEM did not comply with Federal requirements
           for allocating grant funds. These instances of noncompliance might have been
           identified earlier through increased oversight of performance.

           We identified instances of noncompliance with procurement procedures and
           financial management resulting in questioned costs of $660,657, as shown in
           table 1.

www.oig.dhs.gov                                5                                      OIG-13-10
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security



                        Table 1. Procurement and Financial Management Issues 

                         Compliance Issues               Questioned Costs
                         Full and Open Competition       $538,902
                         Employee Compensation           $121,328
                         Reimbursement of Expenses       $    427
                         Total                           $660,657
                        Source: OIG.

             One of the questioned costs included a $104,505 radio communications
             equipment purchase made without completing the competitive bidding process
             required by the VirginiafPublicfProcurementfAct.1 We also determined that a
             Commonwealth employee working multiple grant programs was compensated
             for $97,328 without properly accounting for hours worked on each grant, as
             mandated by the CFR.2 Appendix E contains additional information on the
             procurement and financial management compliance issues identified in table 1
             and the potential monetary benefits.

             Subgrantees did not always maintain and control equipment inventory as
             required in Federal regulations. According to 44 CFR 13.32, Equipment,f
             (d) Managementfrequirements, among other requirements (1) property records
             must be maintained that include the property’s cost, description, identification
             number, location, use, condition, and ultimate disposition; (2) a physical
             inventory must be taken and the results reconciled with property records at least
             every 2 years; and (3) a control system must be developed to ensure adequate
             safeguards to prevent loss, damage, or theft of the property. Property records
             for 9 of the 16 subgrantee projects reviewed either did not exist or did not
             contain all information required by Federal regulations. One subgrantee could
             not demonstrate that it had conducted a physical inventory of the equipment
             purchased with Federal funds. Four of the 16 subgrantees had not possessed
             the equipment purchased for at least 2 years and therefore, were not required
             to conduct a physical equipment inventory. However, according to the CFR, the
             subgrantees should have had controls to safeguard and account for equipment;
             such controls did not exist or were inadequate.
             Further, 2 of the 16 subgrantees did not mark equipment purchased with HSGP
             funds. According to FEMA’s grant agreements, grant recipients are required,


   1
     For purchases of more than $30,000, the VirginiafPublicfProcurementfAct requires written informal solicitation of a 

   minimum of four bidders or offerors.

   2
     According to 2 CFR Part 225, Appendix B, Sections 8.h.(4) and 8.h.(5)(a), “Where employees work on multiple

   activities or cost objectives, a distribution of their salaries or wages will be supported by personnel activity reports ...” 

   “[that] must reflect an after-the-fact distribution of the actual activity of each employee.”


www.oig.dhs.gov                                                  6                                                       OIG-13-10
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           when practicable, to prominently mark any equipment purchased with grant
           funding.

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate require VDEM to:

           Recommendation #2:

           Revise its policies and procedures for monitoring subgrantees to provide
           reasonable assurance that subgrantees are complying with Federal laws and
           regulations applicable to all compliance issues, including procurement
           procedures, financial management, property records, and equipment inventory.

           Recommendation #3:

           Develop and implement policies and procedures for selecting open and closed
           State Homeland Security Program and Urban Areas Security Initiative subgrantee
           projects for audits conducted by the Virginia Department of Emergency
           Management.

           Recommendation #4:

           Ensure correct allocation of grant funds by implementing employee activity
           reports that reflect an after-the-fact distribution of actual employee activity for
           employees working on multiple grant programs.

           Recommendation #5:

           Complete a review of the questioned costs to determine whether (1) the sole
           source procurements were justified and the prices obtained were fair and
           reasonable; and (2) the employee compensation was justified and the level of
           compensation was reasonable. Limit the allowable costs for the procurements
           and employee compensation to amounts determined to be fair and reasonable.




www.oig.dhs.gov                                  7                                        OIG-13-10
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Comments and OIG Analysis

           FEMA’s Response to Recommendation #2: FEMA concurred with
           recommendation 2. According to FEMA, it will require VDEM to submit a
           revision to its policies and procedures for monitoring subgrantees within 120
           days of receipt of FEMA’s management comments to this report. VDEM’s
           revision to its policies and procedures should focus on subgrantees’ compliance
           with Federal laws and regulations applicable to all compliance issues, including
           procurement procedures, financial management, property records, and
           equipment inventory.

           FEMA’s Response to Recommendation #3: FEMA concurred with
           recommendation 3. According to FEMA, it will require VDEM to develop and
           implement policies and procedures that clarify the roles and responsibilities of
           the VDEM internal auditors with respect to their evaluation or oversight of the
           SHSP and UASI. Where applicable, those policies and procedures should be
           integrated with VDEM's existing subrecipient monitoring protocols for selecting
           open and closed SHSP and UASI subgrantee projects for any audits or reviews
           conducted by VDEM. VDEM should submit to FEMA those policies and
           procedures or any revised monitoring protocols that address the issues raised in
           this recommendation within 90 days of receipt of FEMA’s management
           comments to this report.

           FEMA’s Response to Recommendation #4: FEMA concurred with
           recommendation 4. According to FEMA, it will require VDEM to submit an
           employee time distribution plan that reflects an after-the-fact distribution of
           actual employee activity for employees working on multiple grant programs
           within 180 days of receipt of FEMA’s management comments to this report.

           FEMA’s Response to Recommendation #5: FEMA concurred with
           recommendation 5. FEMA stated that it will require VDEM to (1) complete a
           review of the questioned costs to determine whether sole source procurements
           were justified and the prices obtained were fair and reasonable; (2) review
           whether the employee compensation was justified and the level of compensation
           was reasonable; and (3) report on those findings within 90 days of receipt of
           FEMA’s management comments to this report.

           VDEM’s Response to Recommendations #2 through #5: VDEM agreed with
           recommendations 2 through 5. According to VDEM, its grant process was
           revised with the FY 2011 grant cycle that incorporated the grant management
           oversight recommendations in this report. VDEM indicated that its Grants Office


www.oig.dhs.gov                                 8                                        OIG-13-10
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           is in the process of updating and enhancing its Subgrantee Administrative Guide,
           eGMS Training Manual, and internal policies and procedures.

           OIG Analysis: The actions proposed by FEMA and VDEM meet the intent of
           recommendations 2 through 5. When implemented, the actions identified in the
           responses should address the conditions identified during the audit. These
           recommendations will remain resolved and open until we have reviewed the
           following:

           •	 Recommendation 2: VDEM’s revised policies and procedures for monitoring
              subgrantees;

           •	 Recommendation 3: VDEM’s policies and procedures that clarify the roles
              and responsibilities of the VDEM internal auditors with respect to their
              evaluation or oversight of the SHSP and UASI;

           •	 Recommendation 4: VDEM’s employee time distribution plan that reflects
              an after-the-fact distribution of actual employee activity for employees
              working on multiple grant programs; and

           •	 Recommendation 5: VDEM’s review of the questioned costs identified in the
              report and the actions taken for costs determined not to be fair and
              reasonable.

           Untimely Award of Grant Funds

           The Commonwealth of Virginia did not award funds to subgrantees in the
           federally required timeframe. VDEM submitted the Commonwealth’s required
           funding allocation plan to FEMA in the required timeframe, but SHSP and UASI
           funding for FY 2008 through FY 2010 was not made available to subgrantees
           until, in one example, as many as 842 days after the required period. Delays in
           awarding funds to subgrantees could result in delays for projects intended to
           increase homeland security and achieve program objectives.

           According to FEMA’s award conditions for FY 2008 through FY 2010, HSGP grant
           recipients must submit funding allocations to FEMA within 45 days of receiving
           the grant award. If this funding allocation information is not provided to FEMA
           within 45 days, FEMA may withhold further grant funding. HSGP guidance
           requires that each State make no less than 80 percent of the total grant amount
           available to local units of government and urban areas within 45 days of receipt
           of funds.


www.oig.dhs.gov                                9                                 	    OIG-13-10
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           We reviewed 81 subgrantee projects that received SHSP and UASI funds from
           FY 2008 through FY 2010. For 76 of these projects, on average, 296 days passed
           between VDEM’s acceptance of HSGP grant funding and its awarding of funds to
           the subgrantees (see table 2). For 78 of 81 projects, grant award letters were
           not sent to subgrantees within the required 45-day period. Grant funds must be
           awarded to subgrantees before they can be reimbursed for allowable
           expenditures.

           Table 2. Average Days to Award SHSP and UASI Funds
           (FY 2008 through FY 2010)
             Grant        Award of Funds   Subgrantee   Award Amounts   Percentage of SHSP and
             Year         (average days)     Projects                      UASI Grant Funds
                                            Reviewed
            FY 2008            296              34       $15,298,645             49%

            FY 2009            405            24         $16,445,409             55%

            FY 2010            193            23         $18,188,308             63%
             Total             296            81         $49,932,362             55%
           Source: OIG.

           VDEM officials believed that, because they submitted the required funding
           allocation plan to FEMA within 45 days, they complied with grant award
           requirements. Additionally, VDEM indicated that it would not be able to award
           grant funds to local governments and urban areas within 45 days of receiving the
           awards because they required additional time to accept the grants and prepare
           grant applications for VDEM review and approval.

           Recommendation

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate, require VDEM to:

           Recommendation #6:

           Assess the current processes and procedures to improve the efficiency of
           awarding Homeland Security Grant Program funds to local units of government
           and urban areas.




www.oig.dhs.gov                                    10                                     OIG-13-10
                                    OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Management Comments and OIG Analysis

           FEMA’s Response to Recommendation #6: FEMA concurred with
           recommendation 6. According to FEMA, it will require VDEM to assess the
           current processes and procedures for awarding HSGP funds to eligible recipients.
           VDEM must provide a plan that will improve the efficiency of awarding HSGP
           funds to eligible recipients within 90 days of receipt of FEMA’s management
           comments to this report.

           OIG Analysis: The actions proposed by FEMA meet the intent of
           recommendation 6. This recommendation will remain resolved and open until
           we have reviewed VDEM’s assessment and plan for improving the efficiency of
           awarding HSGP funds to eligible recipients.

           Untimely Expenditure of Grant Funds

           Because subgrantees did not always expend grant funds in a timely manner, not
           all SHSP and UASI funds were expended within the grant performance period. As
           a result, first responders may not have been fully equipped, trained, and prepared.

           According to FEMAfInformationfBulletinfNo.f257, dated July 17, 2007,
           subgrantees face various obstacles in completing projects, but it is important to
           ensure that funds are obligated and expended in a timely manner and within
           established periods of performance. HSGP guidance states that the 36-month
           period of performance begins on the project or budget period start date that is
           included in the award package. Additionally, any unobligated funds are to be
           deobligated at the end of the closeout period, unless FEMA approves an
           extension of the performance period.
           According to the Commonwealth of Virginia’s financial records, as of April 2012,
           83 percent of FY 2008, 63 percent of FY 2009, and 24 percent of FY 2010 SHSP and
           UASI grant funds awarded to subgrantees were expended, as shown in table 3.

           Table 3. Commonwealth of Virginia SHSP and UASI Grant Expenditures as of
           April 2012 (FY 2008 through FY 2010)
             Grant        Date of    End of      Total       Total Expended    Balance      Percentage
             Year         Award      Grant      Awarded                                      Expended
                                     Period                                                 as of April
                                                                                               2012
            FY 2008       8/22/08    8/31/11   $31,281,500    $25,957,042     $5,324,458       83%

            FY 2009       8/21/09    7/31/12   $30,090,150    $19,030,857     $11,059,293      63%

            FY 2010       9/27/10    7/31/13   $28,728,273     $7,022,996     $21,705,277      24%
           Source: OIG.

www.oig.dhs.gov                                    11                                            OIG-13-10
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           VDEM requested and FEMA approved three performance period extensions for
           the FY 2008 HSGP. In addition, the FY 2009 performance period was extended
           once. Currently, the FY 2008 performance period will end on February 28, 2013,
           and the FY 2009 performance period will end on December 31, 2012.

           According to VDEM, there may have been several reasons why grant funds were
           not spent in a timely manner. Delays may be a result of the need to fulfill
           Federal environmental and historic preservation requirements, the time needed
           to procure equipment, and the need for subgrantee coordination.

           Delays in expending grant funds may continue to impede the Commonwealth’s
           and subgrantees’ ability to improve preparedness and response capabilities. In
           addition, extensions in the grant performance period and delays in officially
           closing the grant could result in FEMA deobligating grant funds.

           Recommendation

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate, require VDEM to:

           Recommendation #7:

           Assess the current process and identify ways to improve subgrantees’
           performance in meeting established grant performance timelines.

           Management Comments and OIG Analysis

           FEMA’s Response to Recommendation #7: FEMA concurred with
           recommendation 7. FEMA stated that it will require VDEM to assess the current
           processes and procedures to identify ways to improve subgrantees’ performance
           in meeting established grant performance deadlines. VDEM must provide a plan
           that will improve subgrantees’ performance in meeting those deadlines within
           180 days of receipt of FEMA’s management comments to this report.

           VDEM’s Response to Recommendations #6 and 7: VDEM explained that it has
           utilized the Initial Strategy Implementation Plan submission to FEMA, ensuring
           that the obligation was made to local governments within the 45-day period.
           According to VDEM, this has been the only documented way to adhere to the
           Environmental Historic Preservation requirements, review budgets in advance,
           and allow the local governments to accept the funds into their locality. There is
           an unrealistic expectation that local governments would be able to receive an

www.oig.dhs.gov                                12                                       OIG-13-10
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           award from VDEM releasing the funds for expenditure within 45 days and still
           adhere to the Federal and State requirements for spending Federal funds. VDEM
           has recently implemented an electronic grants management system that will
           speed up this process and have the funds into the local governments’ hands
           more quickly by issuing formal allocation letters to the local governments.
           However, the formal award will not be released until all grants have been made.

           OIG Analysis: The actions proposed by FEMA meet the intent of
           recommendation 6 and 7. These recommendations will remain resolved and
           open until we have reviewed VDEM’s assessment and plans for improving the
           efficiency of awarding HSGP funds to eligible recipients and for improving
           subgrantees’ performance in meeting established grant performance deadlines.




www.oig.dhs.gov                              13                                     OIG-13-10
                                   OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objectives of the audit were to determine whether the Commonwealth of Virginia’s
   management distributed and spent SHSP and UASI grant funds (1) effectively and
   efficiently and (2) in compliance with applicable Federal laws and regulations and DHS
   guidelines. We were to also address the extent to which grant funds enhanced the
   Commonwealth’s ability to prevent, prepare for, protect against, and respond to natural
   disasters, acts of terrorism, and other manmade disasters.

   The scope of this audit included the Commonwealth’s plans to improve preparedness
   and response to all types of hazards, goals and objectives set in those plans,
   measurement of progress toward the goals, and assessments of performance
   improvement resulting from this measurement.

   Together, the HSGP and its interrelated grant programs fund a range of preparedness
   activities, including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, only SHSP and UASI funding,
   equipment, and supported programs were reviewed for compliance.

   The scope of the audit included the SHSP and UASI grant awards for FY 2008, FY 2009,
   and FY 2010, as shown in table 4.

   Table 4. Commonwealth of Virginia HSGP Awards (FY 2008 through FY 2010)
                  Grant Programs               FY 2008       FY 2009       FY 2010        Total
    State Homeland Security Program           $21,800,000   $20,048,000   $18,680,612   $60,528,612
    Urban Areas Security Initiative Program    $9,481,500   $10,042,150   $10,047,661   $29,571,311
    Total                                     $31,281,500   $30,090,150   $28,728,273   $90,099,923
    Citizen Corps Program                        $331,501      $329,655      $282,223      $943,379
    Metropolitan Medical Response System
                                               $1,927,326    $1,927,326    $1,904,514    $5,759,166
    Program
    Operation Stonegarden                             N/A           N/A          N/A            N/A
    Grand Total                               $33,540,327   $32,347,131   $30,915,010   $96,802,468
   Source: OIG.




www.oig.dhs.gov                                    14                                        OIG-13-10
                                   OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   The audit methodology included work at FEMA headquarters, Commonwealth of
   Virginia offices, Richmond and Norfolk urban areas that received grants, and various
   subgrantee locations. To achieve our audit objective, we analyzed data, reviewed
   documentation, and interviewed key Commonwealth and local officials directly involved
   in the management and administration of the Commonwealth of Virginia’s HSGP.

   We sampled project files from State agencies, designated UASI areas, and local
   government subgrantees that received SHSP or UASI grants awarded in FY 2008,
   FY 2009, or FY 2010, as shown in table 5.

   Table 5. Subgrantee Sample Selection (FY 2008 through FY 2010)
    Subgrantees                             Grant Amount    Project Description
    1. Loudoun County, 2008 SHSP               $1,481,960   Bomb Squad Equipment and Training
    2. Fauquier County, 2009 SHSP               $882,130    P25 Software Upgrade Project
                                                            Regional Radio Communication
    3. Stafford County, 2010 SHSP               $970,600
                                                            Interoperability
    4. Henrico County, 2008 SHSP               $1,266,100   Bomb Squad Equipment and Training
                                                            Richmond Area Microwave Interoperability
    5. Henrico County, 2009 SHSP               $1,730,000
                                                            System
    6. Nottoway County, 2008 SHSP              $1,300,000   Regional Interoperable Communication
                                                            Chemical, Biological, Radiological, Nuclear,
    7. Colonial Heights City, 2008 UASI           $5,256
                                                            and Explosives Equipment
    8. Richmond City, 2008 SHSP                $1,176,300   Bomb Squad Equipment and Training
                                                            Central Virginia Regional Information
    9. Louisa County, 2010 SHSP                $1,249,666
                                                            Sharing Project
                                                            Chemical, Biological, Radiological, Nuclear,
    10. Hopewell City, 2008 UASI                 $10,000
                                                            and Explosives Equipment
    11. New Kent County, 2008 UASI               $12,307    Mass Casualty Incident Trailer
    12. Brunswick County, 2008 SHSP             $985,531    Regional Information Network Sharing
    13. York County, 2009 UASI                   $75,223    Emergency Power Generator
    14. Virginia Department of Social
                                                $945,000    Shelter Retrofitting
    Services, 2008 SHSP
    15. Hampton Roads Planning District                     Pet Evacuation and Management
                                                $488,655
    Commission, 2009 UASI                                   Resources
    16. Hampton Roads Transit, 2008 UASI        $150,000    Regional Security for Mass Transit
    Total of Subgrantee Awards                $12,728,728
    17. Virginia Department of Emergency
                                               $2,189,471   Management and Administration
    Management, 2008–2010
    Grand Total of Awards Selected            $14,918,199
   Source: OIG.




www.oig.dhs.gov                                    15                                               OIG-13-10
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   At each location, we interviewed officials responsible for project oversight, reviewed
   documentation supporting Commonwealth and subgrantee management of grant
   funds, and physically inspected selected equipment procured with grant funds.

   FY 2011 grants were not included in the scope of this audit because DHS did not allocate
   those funds to grant recipients until August 24, 2011. Grant recipients would not have
   had sufficient time to expend these funds prior to our fieldwork.

   We conducted this performance audit between February and August 2012 pursuant to
   the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                               16                                       OIG-13-10
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix B
   FEMA Management Comments to the Draft Report
                                                                              U.S.   D~plr1n1~nl
                                                                                               or lIomd.nd 5«uril)'
                                                                                           Washington. DC ~12




                                                   OCT 2 3 2012




              MEMORAN DUM FOR:               Anne L. Richards
                                             Assistant Inspector General for Audits
                                             Office of Inspector General

              FROM:                          David J. Kaufman     ~~ ~
                                             Director
                                             Office of Policy and Program Analysis

              SUBJECT:                       Response to DIG Draft Report. The Commonwealth of Virginia's
                                             M(lIJagemenr ofState Nomeland Security Program and Urbm1 Areas
                                             Security Initiatil'e Grants Awarded During Fiscal Years 2008 through
                                             1010 (12-101-AUD-FEMA)


              Thank you for the opportunity to comment on the draft report. The findings in the report will be used
              to strengthen the effectiveness and efficiency of how we execute and measure our programs. We
              recognize the need to continue to improve the process, including addressing the recommendations
              raised in thi s report . Our responses to the recommendations are as follows:

              R ecomm e ndation # 1: We recommend that the FEMA Assistant Administrator, Grant Programs
              Directorate, assist the Virginia Department of Emergency Management (VDEM) to develop a
              comprehensive performance measurement system for its Homeland Security Strategies' goals and
              objectives that includes target levels of performancc and the means to measure progress toward
              enhancing preparedness.

              fEMA Responsl.': FEMA concurs with the recommendation. The FY12 Homeland Security Grant
              Program (HSG P) Funding Opportunity Announcement (FOA) provided instruction to states on
              updating their homeland security strategies so thai their goals and objectives align to Presidential
              Policy Directive 8 (PPD-8) and the Whole Community approach.

              The FOA states that State and Urban Area Homelalld Security Strategies should be updated every
               IWO (2) years at a minimum to ensure that their strategies cOlI/inlie to address all homeland security
              mission areas (prevem, protec/ against, respond 10, recO\~er [rom, and mitigate all hazards) and
              reflect hall' their goah and objectives align to PPD-8 and tlte Whole Community approach. When
              rel'isiting and upc/ating the strategies, goals. and objectives, Stales (md Urban Areas are strongly
              encouraged 10 consider collaboration across disciplines, j urisdictions. and agencies within the
              framework ofthe mission areas and based on a capability-based planning approach.




www.oig.dhs.gov                                              17                                                         OIG-13-10
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              The NationaJ Preparedness Directomte (N PO) in FEMA is responsible tor strategy oversight and
              guidance development. NPD is currently developing processes to measure core capabilities in
              accordance with the National Preparedness Goal pursuant to PPD-8 which will be completed and
              suhmiued to FEMA leadership hy Decembe r 2012. Upon o ffici al release urthe gu idance on
              performance measures, GPD will require the VDEM to update their strategy and fully comply with
              the additi onal guidance. FEMA requests that the recommendation be considered resolved and open
              pending completion of the stated corrective actions.

              Recommendation #2: \Vc recommend that the FEMA Assistant Administrator. Grant Programs
              Directorate require VDEM to revi se Its policies and procedures for monitoring subgrantees to
              provide reasonable assurance that subgrantees are compl ying with Federal laws and regu lations
              appl icable to all compliance issues. including procurement procedures, financial management.
              property records, and equipment invcntory.

              FE\tA Response: FEMA concurs with this recommendation. FEMA will require VDEM to su bmit
              a revision to its policies and procedures for monitoring subgrantees within 120 days of receipt of this
              letter. The revision should focus on subgrantees' compliance with Federal laws and regulations
              applicable to all compl iance issues. including procurement procedures, financial management,
              properLy records, and equipment inventory. FEMA believes this satisfie s the intent of the
              recommendation and requests that thi s recommendation be considered reso lved and open pending
              completion of the stated correcti ve actions.

              Recommendation #3: \Ve recommend that the FEMA Assistant Admini strator, Grant Programs
              lJirectoraie require VlJEM to develop and implement policies and procedures for selecting open and
              closed State Homeland Security Program and Urban Areas Security Initiative subgrantee projects for
              audits conducted by the VDEM.

              FEMA Response: FEMA concurs with this recommendation. FEMA will require VDEM to
              develop and implement po lici es and procedures that clarify tlIe JOles and responsibilities of the
              VDEM internal auditors with respect to their e"aluati on or oversight of the State Homeland Security
              Program and Urban Area Security Initiative. Where applicable, those policies and procedures
              should be integrated with VDEM's existing subrecipient monitoring protocol s fur seledin g open ami
              closed State I Iomeland Security Program and Urban Area Security Initiative subgrantcc projects for
              any audits or reviews conducted by VDEM. VDEM should submit to FEMA those policies and
              procedures or any revised moniloring protocols that address the issues raised in Recommendati on #3
              within 90 days of receipt of thi s letter. FEMA bel ieves this satisfi es the intent of the
              recommendation and requests that this recommendation be considered reso lved and open pending .
              completion of the stated correcti ve actions.

              Recommendation #4: \Vc recommend that the FEMA Ass istant Administrator, Grant Programs
              Directorate require VDEM to ensure correct allocation of grant funds by implementing employee
              activity reports that reflect an after the fact distribution of actual employee activity for employees
              working on multiple grant programs.

              FEMA Response: FEMA concurs with the recommendati on. FEMA will require VDEM to submit
              an employee time distribution plan that reflects an after-the- fact distribution of actual employee
              activity for employees working on multiple grant programs within I ~u days of receipt of this letter.
              FEMA believes this satisfie s the intent of the recommendation and requests that this




www.oig.dhs.gov                                               18                                                        OIG-13-10
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              recommendation be considered resolved and open pending completion of the siated corrective
              actions.

              Recommendation #5: We recommend that the FEMA Assistant Administrator, Grant Programs
              Directorate require VDEM to complete a review of the questioned costs to determine whether (I) the
              sole source procurements were justified and the prices obtained were fair and reasonable ; and (2) the
              employee compensation was j ustified and the level of compensation was reasonable. Lim it the
              allowable costs for thc procurements and emp loyee compensation to amounts determined to be fair
              and reasonabl e.

               FEMA Response: FEMA concurs with this recommendati on. FEMA will require VDEM to
              complete a review ofthe questioned costs to determine whether so le source procurements were
              j ustified and the prices obtained were fair and reasonable. VDEM should also review whether the
              employee compensation was j usti ried and the level of compensation was reasonahle. VDF.M must
              report on those findings within 90 days of receipt of this letter. FEMA believes this will satisfy the
              intent of the recommendation and requests that this recommendation be considered resolved and
              open pending completion of the stated corrective actions.

              Recommendation #6: We recommcnd that the FEMA Assistant Administrator, Grant Programs
              Directorate require VDEM to assess the current processes and procedures to improve the efficiency
              of awanli ng Homeland Security Grant Prtlgrarn rumls to Im;al un iL... or govemment and urban areas.

              FK\IA Response: FEMA concurs with this recommendation. FEMA will require VDEM to assess
              the current processes and procedures for awarding HSGP funds to eligible rel:ipien ls . VDF.M must
              provide a plan that wi ll improve the effi ciency of awarding llSGP funds to eligible recipients within
              90 days of receipt of this letter. FEMA believes thi s satisfies the intent of the recommendation and
              requests that this recommendation be considered resolved and open pending completion of the stated
              correct ive actions.

              Recommcnd3tion #7: We recommend that the FEMA Assistant Administrator, Grant Programs
              Directorate require VDEM to assess the currellt process and identify ways to improve subgrantees'
              performancc in meeting cstablishcd grant performance timclincs

              FE:\IA Response: FEMA C(lOl:Urs wi th thi s r~co mm~ndation. FF.MA wil l require VDF.M to assess
              the current process and identi fy ways to improve subgrantees ' performance in meeting established
              grant perfonnance timelines. VDEM must provide a plan that improves subgrantees ' perfonnance in
              meeting those timelines within 180 days of rece ipt of this letter. FEMA believes this satisfies the
              intent of the recommendation and requests that this recommendation be considered resolved and
              open pending completion of the stated corrective actions.

              Again, we thank you for the oppmtunity to provide commel11s concerning tllis repOlt. Please contact
              Audit Liaison Gina Norton at 202-646-4287, regarding further questions or concerns.




www.oig.dhs.gov                                               19                                                        OIG-13-10
                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Appendix C
   VDEM Management Comments to the Draft Report




                                     COMMON WEALTH of VIRGINLj
         MICHAEL M. CUNE                 Department of Emergency Managemel1l                                     10501 Trade Court
         Stale Coordlnalor
                                                                                                      Richmond. Virginia 23236-3713
                                                                                                                     (804) 897-6500
         JACK E. KING
                                                                                                                    (TOO) 674·2417
         Chief Deputy CoordInalOt
                                                                                                                FAX (804)897-6506
         BRETT A BURDICK                                    October 10, 2012
         Deputy Coordinator



                 Anne L. Richards
                 Assistant Inspector General for Audits
                 Office of Inspector General
                 Department of Homeland Security
                 Washington, DC 20472

                 Dear Ms. Richards:

                         I appreciate the opportunity to present our views on the draft audit report for the
                 Commonwealth of Virginia's management of the Department of Homeland Security, Federal
                 Emergency Management Agency (FEMA), State Homeland Security Program and Urban Area
                 Security Initiative awaroed during Fiscal Years 2008 - 2010.

                          I would like to begin by thanking the Office of Inspector General (OIG) for the diligence in
                 conducting this audit. Also, to express gratitude 10 you and your staff for the recommendations made
                 in the draft report. The Commonwealth agrees that some of these recommendations are valid, and we
                 have taken steps towards implementing these with recent grant funding.

                         Respecting the OIG's considerable work and comnUbnent to effective government programs,
                 the Commonwea1th nonetheless maintains that the State Homeland Security Program and Urban Area
                 Security Initiative are successful programs. These programs have assisted first responders throughout
                 the Commonwealth to better prevent, protect, respond, and recover from acts of terrorism.

                          In addition, Virginia Department of Emergency Management (VOEM) believes that the dralI
                 report contains areas that are in need of a response. Whi le these comments were not requested, I feel
                 that this is pertinent and should be included with our response to your report.




                                    "Working to Protect People. Property and Our Communities"




www.oig.dhs.gov                                                    20                                                                 OIG-13-10
                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




                  Ann L. Richards
                  Page 2
                  October 10,2012


                  •    C()mmoll~ahh Could Not Quomifjl Improved I'reJHl,edne.fS

                       DIG Recommendation III      Develop a comprehensive performance measurement system for its
                       Homeland Security Strategies' goals and objectives that include target levels ofperfonnancc and
                       the means to measure progress toward enhancing preparedness.

                       VDEM Response The Commonwealth agrees with this recommendation. The Homeland
                       Security Working Group has been working on the recent Threat and Hazard Identification and
                       Risk Assessment (TIiIRA) and Slate Preparedness Report (SPR) requirement due to FEMA on or
                       before December 31, 20 12. Once these repons are approved by FEMA, the Commonwealth will
                       be able to effectively update the Homeland Security Stralegy to include the DIG
                       reconunendations.

                  •   Grollt Manogemellt Oversight Needs improlltmellt

                      DIG Recommendation /I 2 Revise its policies and procedures for monitoring sUbgrantces.

                      OIG Rewrnmendation /I 3 Develop and implement policies and procedures for sele<:ting open
                      and closed subgrantce projects for audits.

                      DIG Recommendation /I 4 Ensure correct allocation of grant funds by implementing employee
                      activity reports.

                      DIG Recommendation /I 5 - Complete a review of the questioned costs to detennine whether the
                      costs were justified.

                      VOEM Response - VDEM agrees with these four TeCOlllInendations. The grant process was
                      revised with the FY 20 I I grant cycle thai incorporated these recommendations. In addition,
                      VDEM Grants Office is in the process of updating and enhancing the Subgran\e(: Administrative
                      Guide, eGMS Training Manual, and internal policies and procedures.

              •       UntimelyAWlm/ojGrolltFUllds

                      DIG Recommendation 116 & 7 - Assess the current processes and procedures to improve the
                      efficiency of awarding Homeland Security Grant Program fimds to local goverrunent and urban
                      areas. Assess the current process and identify ways to improve subgrantces' performance in
                      meeting established grant performance.




www.oig.dhs.gov                                                   21                                                     OIG-13-10
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                  Ann L Richards
                  Page 3
                  Oclober 10,2012


                      VPEM Response - Historically the Common~th has utilized the Initial Stra1egy
                      Implementation Plan (1SIP) submission to FEMA ensuring the obligation was
                                                                                                        made 10 local
                      governments within the 45-day period. This has been the onlydocumented way
                                                                                                          to adhere 10 the
                      Environmental Historic Preservation (EHP) requirements, review budgetS
                                                                                                    in advance, and 10
                      allow the local governments to aa.:ept the funds into their locality. There is an
                                                                                                        unrealistic
                      expectation thai kx:al governments would be able to receive an award from VOEM
                                                                                                              releasing the
                      funds for expenditw"e within 45 days and still adhere 10 the federal and state requirem
                                                                                                                ents for
                      spending federal funds.

                      VOEM has recently implemented an electronic grants management system that
                                                                                                      will speed up this
                      process and have the funds inlO the kx:al government's hands more quickly
                                                                                                  by issuing formal
                      allocation letters to the local governments. However, the fonnal award will not
                                                                                                      be released until
                      all grants (both federal and state) have been made.

                          In conclusion, the VOEM Grants Management Office has developed and implemen
                                                                                                               ted
                  policies and procedures for the Homeland Security Grant Program, as well as
                                                                                               other federal grMt
                  programs managed by VOEM. We would like 10 thank the OIG for their time and
                                                                                                    effort in assisting us
                  in guidance and direction as we move forward with implementing best practices
                                                                                                  for the SUIx:esS of
                  these programs. If you have any questions, please contact Cheryl Adkins. grants
                                                                                                  director, at
                  (804) 897-6597 or cherYI,adkinslQlvdcm,yjfljljnjagov.

                                                                      Sincerely,


                                                      /lJ~ ~Ce:.      Michael M. Cline
              MMC/cja

              c;         Hooorable Terrie Suit. Secretary of Veterans Affairs & Homeland Secwity
                         Honorable Marta Decker, Secretary of Public Safety
                         Jack King, VDEM ChiefOeputy Coordinator
                         Brett Burdick, VDEM Deputy CoonIinator of Administration
                         Cheryl Adkins, VOEM Grants Director




www.oig.dhs.gov                                                     22                                                        OIG-13-10
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D
   Homeland Security Grant Program
   The State Homeland Security Program supports the implementation of State Homeland
   Security Strategies to address the identified planning, organization, equipment, training,
   and exercise needs to prevent, protect against, respond to, and recover from acts of
   terrorism and other catastrophic events.

   The Urban Areas Security Initiative Program funds address the unique planning,
   organization, equipment, training, and exercise needs of high-threat, high-density urban
   areas, and assists them in building an enhanced and sustainable capacity to prevent,
   protect against, respond to, and recover from acts of terrorism.

   The Metropolitan Medical Response System Program supports the integration of
   emergency management, health, and medical systems into a coordinated response to
   mass casualty incidents caused by any hazard. Successful Metropolitan Medical
   Response System Program grantees reduce the consequences of a mass casualty
   incident during the initial period of a response by having augmented existing local
   operational response systems before an incident occurs.

   The Citizen Corps Program brings community and government leaders together to
   coordinate the involvement of community members and organizations in emergency
   preparedness, planning, mitigation, response, and recovery.

   Operation Stonegarden funds are intended to enhance cooperation and coordination
   among local, tribal, territorial, State, and Federal law enforcement agencies in a joint
   mission to secure the United States borders along routes of ingress from international
   borders to include travel corridors in States bordering Mexico and Canada, as well as
   States and territories with international water borders. This program was not included
   in the FY 2008 and FY 2009 Homeland Security Grant Program.




www.oig.dhs.gov                               23                                       OIG-13-10
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix E
   Commonwealth of Virginia Homeland Security Governance




   Source: Virginia Department of Emergency Management.

   The Secretary of Veterans Affairs and Homeland Security coordinates all agencies 

   involved in the Commonwealth’s homeland security efforts (including prevention, 

   vulnerability reduction, response, and recovery).


   The Virginia Department of Emergency Management coordinates the Commonwealth’s
   emergency preparedness, mitigation, response, and recovery activities.

   The Secure Commonwealth Panel is an advisory board within the executive branch of
   the Commonwealth of Virginia’s government, reporting directly to the Secretary of
   Veterans Affairs and Homeland Security. The 34-member panel monitors and assesses
   implementation of Statewide deterrence, prevention, response, and recovery initiatives;
   and reviews, evaluates, and makes recommendations pertaining to the security and
   emergency preparedness of government at all levels in the Commonwealth.

   The Homeland Security Working Group is an operations team of State agencies that
   meets regularly to assess the Commonwealth’s preparedness and capabilities. These
   partners coordinate, develop, and implement policies for funding and operations
   relating to preparedness for all types of hazards.
www.oig.dhs.gov                                  24                                 OIG-13-10
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Regional Stakeholder Groups meet regularly and focus on regional initiatives in training,
   equipment, communication, and strategy to ensure access to response teams during
   emergencies and to facilitate testing, training, and exercises for mass casualty
   preparedness.

   The Virginia Military Advisory Council’s mission extends to the military commanders
   stationed in the Commonwealth. The commanders work together to encourage regular
   communication on continued military facility viability; explore privatization
   opportunities; and resolve issues affecting preparedness, public safety, and security.

   The State Interoperability Executive Committee is the steering group for the
   Commonwealth Interoperability Coordinator and makes recommendations for the
   distribution of Federal grants funds to localities for voice and data communication
   projects. The State Interoperability Executive Committee consists of 13 representatives
   from regional, local, and State public safety associations and government.




www.oig.dhs.gov                               25                                      OIG-13-10
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix F
   Commonwealth of Virginia Procurement and Financial
   Management Compliance Issues and Schedule of Questioned
   Costs
       •   ProcurementsfWithoutfFullfandfOpenfCompetitionf

           A SHSP subgrantee purchased radio communications equipment for $104,505
           without full and open competition. The subgrantee acquired one quote before
           purchasing the equipment. For purchases over $30,000, the VirginiafPublicf
           ProcurementfActfrequires a written informal solicitation of a minimum of four
           bidders or offerors.

           A UASI subgrantee purchased a Mass Casualty Incident trailer for $12,157. The
           subgrantee’s purchase of the trailer did not comply with the county’s
           procurement policy, which requires a general requisition form to be completed
           and three telephone quotes to be obtained if the expected total cost of goods is
           between $2,000 and $20,000.

           A subgrantee purchased seven pet supply trailers for $422,240 using UASI grant
           funding. The subgrantee made the purchase without obtaining four quotes from
           vendors prior to submitting the purchase order, as required by the Virginiaf
           PublicfProcurementfAct. Furthermore, the subgrantee did not follow its own
           procurement procedures requiring three different price quotations.

       •   QuestionedfEmployeefCompensationff

           A Commonwealth employee was compensated $97,328 while working on
           multiple grant programs without properly accounting for hours worked on each
           grant. In addition, the organization used a predetermined percentage of hours
           worked to calculate payroll other than for the sole purpose of HSGP. According
           to 2 CFR Part 225, Appendix B, Sections 8.h.(4) and 8.h.(5)(a), “Where employees
           work on multiple activities or cost objectives, a distribution of their salaries or
           wages will be supported by personnel activity reports...” “[that] must reflect an
           after-the-fact distribution of the actual activity of each employee.”

           A county employee administering an SHSP grant was compensated $24,000. The
           employee did not establish a reasonable amount of compensation for
           reimbursement or track time spent administering the grant, per Federal
           requirements. According to 2 CFR Part 225, Appendix B, SelectedfItemsfoffCost:ff

www.oig.dhs.gov                                26                                       OIG-13-10
                                   OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Compensationfforfpersonalfservices,femployees working solely on a single
           Federal award must support their compensation request with a supervisory
           certification at least twice a year and demonstrate reasonable compensation
           comparable to the pay of similar government activities.

       •   ReimbursementfoffExpensesf

           A SHSP subgrantee received a total of $427 in funds from a VDEM overpayment.
           We identified this financial discrepancy during our reconciliation of financial
           documentation. Subsequently, the subgrantee reimbursed the Commonwealth
           $427.

           Table 6 presents the total schedule of questioned costs.

                  Table 6. Schedule of Questioned Costs
                                    Potential Monetary Benefits
                             Finding            Rec. No.     Questioned Costs
                   Full and Open Competition        5            $538,902
                   Employee Compensation             5            $121,328
                   Total                                          $660,230
                  Source: OIG. 





www.oig.dhs.gov                                 27                                    OIG-13-10
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix G
   Major Contributors to This Report
   Donald Bumgardner, Director
   Robert Greene, Audit Manager
   Irene Aultman, Auditor-in-Charge
   Carolyn Floyd, Auditor
   Michael Brunelle, Program Analyst
   Melissa Estrella, Program Analyst
   Kelly Herberger, Communications Analyst
   Marisa Coccaro, Independent Referencer




www.oig.dhs.gov                              28                 OIG-13-10
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix H
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  29                        OIG-13-10
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
